FEC -- Semiannual Report: Executive Summary (9/98)
Federal Election Commission
Office of Inspector General -- Semiannual Report
Period ending September 30, 1998
If you require the entire printed version of this report, contact the Office of
Inspector General, Federal Election Commission, 999 E Street, NW, Washington, DC 20463 or
call Dorothy Maddox-Holland, Special Assistant, phone: (202) 694-1015, fax: (202)
501-8134, or e-mail: dmaddox@fec.gov.
Executive Summary
This report is submitted pursuant to the Inspector General Act of 1978, as amended, and
includes a summary of the Office of Inspector General's activities for the period April 1,
1998 through September 30, 1998.
During this reporting period, one audit was commenced.  Our office also conducted
a peer review of another Office of Inspector General.  This was a lengthier project
than expected as there were several major unanticipated issues that occurred during the
review.  The results of the review were presented to the Acting Inspector General.
The OIG also took steps to begin monitoring the Federal Election Commission's (FEC)
progress in assuring that the agency is prepared for the Year 2000 (Y2K) issue.
AUDIT ACTIVITY
TITLE:
Audit of the Commission's Management of Computer Software
ASSIGNMENT #:       98-05
RELEASE DATE:       In Progress
PURPOSE:
The
three primary objectives of this audit are to:
(1) Verify that the Commission's computer software is in compliance with applicable
copyright laws and Commission policies and procedures; (2) Determine that adequate
policies and procedures are in place to prevent unauthorized software use by Commission
employees; and (3) Ensure that adequate controls are in place to detect and prevent
computer viruses.
ADDITIONAL OIG ACTIVITY
There were several requests from the Accounting Officer for OIG assistance.  The
issues dealt with requirements for certification of the order for savings bonds and
controls relating to the new electronic funds transfer (EFT) system required under the
Debt Collection Improvement Act.  We also provided answers to questions relating to
our office posed by Ms. Carolyn Hicks, Professional Committee Staff, Committee on
Government Reform and Oversight.